Accentra Credit Union
400 Fourth Ave NE
Austin, Minnesota 55912
Phone: (507) 433-1829 or (800) 533-0448
Fax: (507) 434-3300
www.accentracu.org

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card is
4/28/2016
accurate as of ____________________.
You can contact us toll free at the number or address above to inquire if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR)
for Purchases, Cash Advances,
& Balance Transfers

8.90% to 15.90% depending on your credit history.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance transfers
on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
• Annual Fee:

None

• Account Set Up Fee:

25.00
$__________
(charged at the time you open the card, and at the time any requested
credit limit increase is approved)

Transaction Fees
• Balance Transfer:

None

• Cash Advance:

None

• Foreign Transaction:

1.00% of each transaction in U.S. dollars if the transaction involves a currency conversion
0.80% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

Penalty Fees
• Late Payment:

Up to $20.00 if your payment is 20 or more days late

• Over-the-Credit Limit:

None

• Returned Payment:

Up to $15.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

9009 LASER ML FI16279 Rev 4-2014

Save

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

